No. 19-1057
444444444444444444444444444444444444444444
IN THE

Supreme Court of the United States
____________________

LORI RODRIGUEZ, ET AL., Petitioners,
v.
CITY OF SAN JOSE, CALIFORNIA, ET AL., Respondents.
____________________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
____________________
Motion for Leave to File Brief Amicus Curiae
and Brief Amicus Curiae of
Gun Owners of California, Inc.,
Gun Owners of America, Inc.,
Gun Owners Foundation,
Heller Foundation, and
Conservative Legal Defense and Education
Fund in Support of Petitioners
____________________

*Counsel of Record

JEREMIAH L. MORGAN*
WILLIAM J. OLSON
ROBERT J. OLSON
HERBERT W. TITUS
WILLIAM J. OLSON, P.C.
370 Maple Ave. W., Ste. 4
Vienna, VA 22180
(703) 356-5070
wjo@mindspring.com
jmorgan@lawandfreedom.com
Attorneys for Amici Curiae
May 20, 2020

444444444444444444444444444444444444444444

No. 19-1057
444444444444444444444444444444444444444444
IN THE

Supreme Court of the United States
____________________

LORI RODRIGUEZ, ET AL., Petitioners,
v.
CITY OF SAN JOSE, CALIFORNIA, ET AL., Respondents.
____________________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
____________________
Motion for Leave to File Brief Amicus Curiae
____________________
Pursuant to subparagraph 2(b) of Rule 37, U.S.
Supreme Court Rules, Gun Owners of California, Inc.,
Gun Owners of America, Inc., Gun Owners
Foundation, Heller Foundation, and Conservative
Legal Defense and Education Fund hereby move the
Court for leave to file an amicus curiae brief in support
of the petition for certiorari.
This brief is being filed timely, “within 30 days after
the case is placed on the docket or a response is called
for by the Court, whichever is later.” Rule 37(2). The
petition was docketed on February 21, 2020, but no
response, or waiver of the right to file a response, was
filed by Respondent. This amicus brief is being filed
on May 20, 2020, which is within 30 days after the
date on which the Court requested a response from
Respondents, which is now due June 22, 2020.
In support of their motion, these amici state:

2
Identity and Experience of Amici Curiae
Gun Owners of California, Inc. is a not-for-profit
corporation organized under the law of California, and
is exempt from federal income taxation under Internal
Revenue Code section 501(c)(4). It has filed at least
seven amicus briefs in this Court.
Gun Owners of America, Inc. is a not-for-profit
corporation organized under the law of California, and
is exempt from federal income taxation under Internal
Revenue Code section 501(c)(4). It has filed 76 amicus
briefs in this Court.
Gun Owners Foundation is a not-for-profit
corporation organized under the law of Virginia, and is
exempt from federal income taxation under Internal
Revenue Code section 501(c)(3). It has filed 81 amicus
briefs in this Court.
The Heller Foundation is a not-for-profit corporation
organized under the law of Virginia, and is exempt
from federal income taxation under Internal Revenue
Code section 501(c)(3). It was founded by Dick Heller,
plaintiff in District of Columbia v. Heller, 554 U.S. 570
(2008). It has filed 11 amicus briefs in this Court.
Amicus briefs filed by these four amici principally
have addressed Second Amendment and Fourth
Amendment issues, both of which are present in this
case.
Conservative Legal Defense and Education Fund is
a not-for-profit corporation organized under District of

3
Columbia law, and is exempt from federal income
taxation under Internal Revenue Code section
501(c)(3). It has filed 114 amicus briefs in this Court.
To the best of counsel’s knowledge, there has been
only one occasion since 1983 in which a party’s counsel
has refused to consent to the filing of any of these
parties’ amicus briefs in this Court, and in that case,
this Court granted the motion for leave to file. See
Trump v. International Refugee Assistance Project, et
al., Nos. 16-1436 and 16A1190 (June 27, 2017).
Relevance of Amicus Brief to
Petition for Certiorari
This Court’s rules provide: “An amicus curiae brief
that brings to the attention of the Court relevant
matter not already brought to its attention by the
parties may be of considerable help to the Court.”
Rule 37. Indeed, a study of cert.-stage amicus briefs
conducted some years ago demonstrated both their
routine nature and their significance. Political science
professors Greg Caldeira and Jack Wright described
cert.-stage amicus briefs as “‘costly signals’ of a
petition’s importance, arguing that simply by meeting
the expense of the filing, amici demonstrate the
interest in and significance of a particular case.”1
It is believed that amicus briefs filed by these amici
in prior cases have been useful to the Court, including
at the petition stage. For example, one or more of
1

A. Chandler, “Cert.-stage Amicus Briefs: Who Files Them and
To What Effect?” SCOTUSBlog (Sept. 27, 2007).

4
these amici filed the only amicus brief at the petition
stage in the following three cases where a writ of
certiorari was issued:
•
•
•

Altitude Express v. Zarda, No. 17-1623 (amicus
brief filed July 2, 2018) (argued October 8,
2019);
Collins v. Commonwealth of Virginia, 138 S. Ct.
1663 (2018) (amicus brief filed March 27, 2017);
and
United States v. Antoine Jones, 565 U.S. 400
(2012) (amicus brief filed May 16, 2011).

On February 19, 2018, Empirical SCOTUS rated
amicus briefs to this Court in a publication entitled
“Amicus Policy Success in Impactful Supreme Court
Decisions,” ranking those briefs filed by Gun Owners
of America, Inc. as tied for 13th in cases where this
Court struck down statutes as unconstitutional or
overturned its own precedents. An amicus brief filed
on December 23, 2015 by four of these amici in a
Second Amendment case, Voisine v. United States, 136
S. Ct. 2272 (2016), reportedly was the basis for
questions posed by Justice Thomas during oral
argument held on February 29, 2016.2
In this case, the brief submitted by amici provides
context to the petition for certiorari, and provides
authorities and makes argument on the important
issues presented which are not addressed fully by
petitioners. These include whether the exercise of a
2

See, e.g., S. Mencimer, “Clarence Thomas Just Did Something
He Hasn’t Done in a Decade,” Mother Jones (Feb. 29, 2016).

5
Second Amendment right to possess a firearm should
justify an exception to Fourth Amendment protection
against warrantless searches, and the application to
this case of this Court’s decision in United States v.
Sineneng-Smith, 590 U.S. ___, 2020 U.S. LEXIS 2639
(May 7, 2020).
The Positions of the Parties
These amici obtained the consent of counsel for
Petitioners. In response to amici’s letter seeking
consent, counsel for Respondents stated:
Respondents do not so consent. I appreciate the
mission of the organizations you represent, but
none appears likely to provide briefing that will be
of substantial assistance to the Court in
evaluating the petition. The case presents no
Second Amendment question, and the Fourth
Amendment question presented is a narrow one
on which the parties’ briefing adequately conveys
all relevant matter.
First, this case involves the refusal of San Jose to
return firearms seized by its agents from a home
without a warrant in violation of the Fourth
Amendment. Counsel for Respondents asserts that
the case “presents no Second Amendment question,”
yet questions two and three of the questions presented
to the Court by Petitioner involve the Second
Amendment. See Petition for Writ of Certiorari,
Questions Presented, Nos. 2 and 3. To be sure, the
U.S. Court of Appeals for the Ninth Circuit rejected
the Second Amendment issue entirely, asserting a

6
defense of issue preclusion that had not been raised by
Respondents either in their motion for summary
judgment in the district court or the initial briefing in
the court of appeals. Certainly, it can be expected that
the Respondents will seize upon that new defense to
the Second Amendment issues raised by Plaintiffs
below, but that does not mean this case presents no
Second Amendment question. The relevance of this
amicus brief supporting this Court’s review of the
questions Petitioners present does not cease because it
clashes with Respondents’ newly embraced theory of
the case.
Second, counsel for Respondents’ doubts that this
amicus brief will be of “substantial assistance to the
Court” should be evaluated in light of the fact that
Respondents did not even file a response, or a waiver
of the right to respond, to the petition for certiorari,
which they have now been ordered to file by the Court.
Lastly, as to the Fourth Amendment issues in this
case, these amici have been leaders in urging this
Court to return to the historical textual property
approach undergirding that amendment, including
their amicus brief in United States v. Antoine Jones,
discussed above, and many subsequent cases.3

3

See H. Titus & W. Olson, “United States v. Jones: Reviving the
Property Foundation of the Fourth Amendment,” Case Western
Reserve University School of Law, Journal of Law, Technology &
the Internet,” vol. 3, no. 2 (Spring 2012).

7
Conclusion
For the foregoing reasons, these amici respectfully
request the Court to grant them leave to file their brief
amicus curiae, which is appended hereto.
Respectfully submitted,

*Counsel of Record

JEREMIAH L. MORGAN*
WILLIAM J. OLSON
ROBERT J. OLSON
HERBERT W. TITUS
WILLIAM J. OLSON, P.C.
370 Maple Ave. W., Ste. 4
Vienna, VA 22180
(703) 356-5070
wjo@mindspring.com
Attorneys for Amici Curiae
May 20, 2020

TABLE OF CONTENTS

Page

TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . iii
INTEREST OF THE AMICI CURIAE . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT. . . . . . . . . . . . . . . . . . . . . . 5
ARGUMENT
I.

THE PETITION SHOULD BE GRANTED TO
REJECT THE NINTH CIRCUIT’S FIREARMS
EXCEPTION TO THE FOURTH AMENDMENT . . . . . 7
A. The Ninth Circuit Distorted the Fourth
Amendment to Provide Reduced
Protection for Owners of Firearms. . . . . . . 7
B. The Exercise of Second Amendment
Rights Does Not Constitute a Forfeiture
of Other Constitutional Rights . . . . . . . . . 10
C. This Court Should Resolve a Circuit
Split that the Exercise of Second
Amendment Rights Diminishes Fourth
Amendment Rights . . . . . . . . . . . . . . . . . . 12

II. THE NINTH CIRCUIT’S “LOW HANGING FRUIT”
EXCEPTION TO THE SECOND AMENDMENT
MUST BE REJECTED . . . . . . . . . . . . . . . . . . . . . 16

ii
III. THE COURT SHOULD ADDRESS THE SECOND
AMENDMENT ISSUE IN THIS CASE DESPITE THE
NINTH CIRCUIT’S ISSUE PRECLUSION
AVOIDANCE TECHNIQUE . . . . . . . . . . . . . . . . . . 22
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

iii
TABLE OF AUTHORITIES

Page

U.S. CONSTITUTION
Second Amendment . . . . . . . . . . . . . . . . . . . 3, passim
Fourth Amendment . . . . . . . . . . . . . . . . . . . 3, passim
STATUTES
California Penal Code § 25135. . . . . . . . . . . . . . . . 21
CASES
Cady v. Dombrowski, 413 U.S. 433 (1973) . . . 6, 8, 9
City of San Diego v. Boggess, 216 Cal. App. 4th
1494, 157 Cal. Rptr. 3d 644 (2013) . . . . . . . . . 18
Corrigan v. District of Columbia, 841 F.3d 1022
(D.C. Cir. 2016) . . . . . . . . . . . . . . . . . . . . . . . . . 9
District of Columbia v. Heller, 554 U.S. 570
(2008) . . . . . . . . . . . . . . . . . . . . . . . . 7, 11, 18, 19
Hill v. Colorado, 530 U.S. 703 (2000) . . . . . . . . . . . 8
Johnson v. United States, 135 S. Ct. 2551 (2015). 12
Katz v. United States, 389 U.S. 347 (1967) . . . . 8, 9
McDonald v. City of Chicago, 561 U.S. 742
(2010) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7, 18
Minnesota v. Dickerson, 508 U.S. 366 (1993) . . . . . 8
Northrup v. City of Toledo Police Dep’t, 785
F.3d 1128 (6th Cir. 2015). . . . . . . . . . . . . . . . . 14
Olmstead v. United States, 277 U.S. 438 (1928) . . 8
Perry v. Sindermann, 408 U.S. 593 (1972) . . . . . . 11
Simmons v. United States, 390 U.S. 377 (1968) . . 10
United States v. Huet, 2010 U.S. Dist. LEXIS
12359 (W.D. Pa. 2010) . . . . . . . . . . . . . . . . . . . 21
United States v. Johnson, 365 F. Supp. 3d 89
(D.D.C. 2019) . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
United States v. Jones, 565 U.S. 400 (2012) . . . . . . 9

iv
United States v. Leo, 792 F.3d 742 (7th Cir.
2015) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
United States v. Robinson, 846 F.3d 694 (4th
Cir. 2017) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
United States v. Robinson, 814 F.3d 201 (4th
Cir. 2016) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
United States v. Rodriguez, 739 F.3d 481
(10th Cir. 2013) . . . . . . . . . . . . . . . . . . . . . . . . 13
United States v. Sineneng-Smith, 220 U.S.
LEXIS 2639 (May 7, 2020) . . . . . . . . . . . . . 6, 22
United States v. Ubiles, 224 F.3d 213 (3d Cir.
2000) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Whole Woman’s Health v. Hellerstedt, 136
S.Ct. 2292 (2016) . . . . . . . . . . . . . . . . . . . . . . . . 7
MISCELLANEOUS
E. Volokh, “Second Amendment Protects Gun
Possession by Housemates of Felons,” The
Volokh Conspiracy (Nov. 24, 2010) . . . . . . . . . 21

INTEREST OF THE AMICI CURIAE4
Gun Owners of California, Inc. and Gun Owners of
America, Inc. are non-for-profit social welfare
organizations, exempt from federal income tax under
Internal Revenue Code (“IRC”) section 501(c)(4). Gun
Owners Foundation, Heller Foundation, and
Conservative Legal Defense and Education Fund are
not-for-profit educational and legal organizations,
exempt from federal income tax under IRC section
501(c)(3).
Amici organizations were established, inter alia,
for the purpose of participating in the public policy
process, including conducting research, and informing
and educating the public on the proper construction of
state and federal constitutions, as well as statutes
related to the rights of citizens, and questions related
to human and civil rights secured by law.
STATEMENT OF THE CASE
On January 24, 2013, Petitioner Lori Rodriguez
called the San Jose Police for assistance with her
husband, Edward, who was exhibiting signs that he
was having “an acute mental health crisis.” Rodriguez
v. City of San Jose, 930 F.3d 1123, 1127-28 (9th Cir.

4

It is hereby certified that counsel for Petitioners have consented
to the filing of this brief, but counsel for Respondents did not
consent; that counsel of record for all parties received notice of the
intention to file this brief at least 10 days prior to its filing; that
no counsel for a party authored this brief in whole or in part; and
that no person other than these amici curiae, their members, or
their counsel made a monetary contribution to its preparation or
submission.

2
2019). No firearms were involved in the incident. See
City of San Jose v. Rodriguez, 2015 Cal. App. Unpub.
LEXIS 2315, *4 (Ct. App., 6th Ap. Dist.) (Apr. 2, 2015).
Edward was removed from the home, and was
“transported to Santa Clara Valley Medical Center for
72-hour treatment and evaluation.” Id. at *1.
Immediately thereafter, a San Jose Police officer,
in the absence of a warrant, “told Lori that he was
required to confiscate guns in the house.” Rodriguez v.
City of San Jose, 2017 U.S. Dist. LEXIS 162977 at *2
(N.D.CA. 2017). The police demanded that Petitioner
unlock her gun safe so they could remove all firearms.
Petitioner objected to the search and seizure, but
complied, after which the police removed all firearms
from the house, including one exclusively owned by
and registered to Petitioner, having been acquired
prior to her marriage to her husband. See Rodriguez,
930 F.3d. at 1128. Several other firearms seized were
registered jointly to Petitioner and her husband, or
presumed to be the community property of Petitioner
and her husband. See id. at 1133.
The search and seizure occurred without a warrant
issued by a neutral magistrate. At the time of the
seizure, it appears to be undisputed that there was no
immediate danger presented by the firearms, either to
Petitioner, her husband, the police, or the public. And,
although the City of San Jose could have returned at
least the firearm owned exclusively by Petitioner, it
has refused to do so in the more than seven years since
the seizure. See Rodriguez, 2017 U.S. Dist. LEXIS
162977 at *2.

3
As a result of his involuntary mental health
incident, Edward became a “prohibited person” who
was disqualified from owning or possessing firearms
for five years under state law. The City of San Jose
filed a state court action seeking forfeiture of all
firearms that had been seized, including the ones
owned exclusively by Petitioner. Petitioner intervened
in that forfeiture action to protect her ownership
interest in the firearms. The California trial court,
however, refused to order the return of any of the
firearms, and thereafter, the Court of Appeal ruled
that, since Petitioner still could apply for return of the
firearms from the police, there had not yet been a
Second Amendment violation.
“In May 2013, Lori received notification from the
California Department of Justice Bureau of Firearms
that she is eligible to both possess and purchase
firearms.” City of San Jose, 2015 Cal. App. Unpub.
LEXIS 2315 at *8. Even though Petitioner had
complete ownership of one firearm, and had obtained
complete ownership of the remainder of the seized
firearms, and had complied with all state firearm laws,
and had applied to the San Jose Police for return of the
firearms that had been seized, the City of San Jose
continued to refuse to return the firearms.
Petitioner then filed suit in the U.S. District Court
for the Northern District of California, asserting a
violation of her rights under the Second, Fourth, Fifth,
and Fourteenth Amendments. After only a conclusory
analysis, devoting only one paragraph to the Second
Amendment claim and three paragraphs to the Fourth
Amendment claim, the district court rejected her

4
arguments, granting summary judgment to
Respondent City of San Jose. Rodriguez, 2017 U.S.
Dist. LEXIS 162977 at *3-*6.
The Ninth Circuit rejected Petitioners’ Second
Amendment argument without considering it, based on
a defense that had neither been raised by Respondent
City of San Jose, nor considered by the district court —
issue preclusion. Taking on the role of a party litigant,
the Ninth Circuit asserted a defense on behalf of the
Respondent City and ruled that, since the California
Court of Appeal had ruled upon the Second
Amendment in the forfeiture action brought by the
Respondent City, the U.S. Court of Appeals was
precluded from considering that issue again. The
Ninth Circuit opinion did not address the fact that the
California court’s ruling on the Second Amendment
appears to have been that the amendment had not
been violated as of that date, because state law
provides a procedure “for return of firearms in the
possession of law enforcement,” and that procedure
“remains available to Lori.” City of San Jose, 2015
Cal. App. Unpub. LEXIS 2315 at *26.
Similarly, the Ninth Circuit rejected Petitioners’
Fourth Amendment claim based on an admitted newly
minted expansion of the so-called “community
caretaking” exception to the Fourth Amendment
warrant requirement. The court ruled that the
presence of firearms in a locked safe, when the
individual creating any emergency had already been
removed from the environment, still justified a
warrantless seizure of those firearms to protect the
public, no matter who owned the firearms.

5
At any stage in more than seven years of
proceedings, the City of San Jose could have returned
Petitioner’s lawfully owned firearms, but has refused
to do so, even though Respondent City has conceded
that Petitioner could lawfully purchase and possess
other firearms at any time. See Rodriguez, 930 F.3d
at 1129.
SUMMARY OF ARGUMENT
The petition for certiorari filed in this case seeks
review of a longstanding dispute between Respondents
and Petitioner Lori Rodriguez, one of its residents,
arising out of the unconstitutional seizure of firearms
in 2013 by San Jose Police, and Respondent City’s
seven-year-long refusal to return those firearms to
their lawful and law-abiding owner. At no time during
seven years of Bleak-House style litigation did
Respondent City assert that Petitioner was:
• not entitled to own and possess a firearm, or
• that the firearms she owned and possessed were
not lawfully owned and registered, or
• that she was barred from purchasing additional
firearms, or
• that the firearms had been involved in any
crime or other incident, or
• that she could not sell the firearms that had
been seized by Respondent City of San Jose to a
licensed dealer and then buy them back from
that dealer, or
• that she had not taken appropriate steps to
prevent her husband, a “disqualified person,”
from having access to her firearms in a locked

6
safe for which her husband did not have the
combination.
First, the Ninth Circuit has allowed the presence
of firearms at the home to empower Respondents to
undermine Petitioner’s Fourth Amendment rights.
But the exercise of Second Amendment rights does not
constitute the forfeiture of Fourth Amendment rights.
The community caretaking exception provides no
justification for weakening the warrant requirement.
That doctrine was developed in the Cady case
involving a missing revolver, in an automobile trunk
where it could be found and misused by a vandal. This
case involves a firearm locked in a safe located in a
house that presented no such risk. The Ninth Circuit
disrespects the original property-principles
undergirding the Fourth Amendment, under which
Respondents actions would constitute an unlawful
common law trespass. See Section III, infra.
Second, the Ninth Circuit had no valid rationale
for disregarding the Second Amendment claim brought
by Petitioner. The notion that the Second Amendment
was not violated because Petitioner could have
purchased another firearm was precluded by Heller.
See Section II, infra.
Third, the Ninth Circuit’s issue preclusion ruling
is based on an erroneous understanding of the
California Court of Appeals decision, and violates this
Court’s recently re-affirmed principle of party
presentation. See United States v. Sineneng-Smith,
220 U.S. LEXIS 2639 (May 7, 2020). See Section III,
infra.

7
ARGUMENT
I.

THE PETITION SHOULD BE GRANTED TO
REJECT THE NINTH CIRCUIT’S FIREARMS
EXCEPTION
TO
THE
FOURTH
AMENDMENT.
A. The Ninth Circuit Distorted the Fourth
Amendment to Provide Reduced
Protection for Owners of Firearms.

Petitioners appropriately note the “Ninth Circuit’s
shabby treatment of Second Amendment claims” and
how that circuit’s hostility to this Court’s holdings in
D.C. v. Heller, 554 U.S. 570 (2008) and McDonald v.
City of Chicago, 561 U.S. 742 (2010) is “distorting
other areas of the law.” Petition at 22-23. This case
shows how the Ninth Circuit has distorted Fourth
Amendment jurisprudence when a warrantless search
and seizure relates to firearms. Since 2008, the Ninth
Circuit has developed a type of “firearms
jurisprudence” — the ability to push aside other
constitutional doctrines in order to uphold virtually
any restriction on the right to keep and bear arms,
despite that right being expressly recognized by and
protected under the Second Amendment.5
5

Similarly, in another area of law, some members of this Court
have noted the formation of “abortion jurisprudence” —
distortions of generally applicable principles of law when that
politically charged issue is involved. See Whole Woman’s Health
v. Hellerstedt, 136 S. Ct. 2292, 2324 (2016) (Thomas, J.,
dissenting). Justice Scalia described abortion jurisprudence as an
“‘ad hoc nullification machine’ that the Court has set in motion to
push aside whatever doctrines of constitutional law stand in the

8
Here, the Ninth Circuit noted that a “‘seizure
conducted without a warrant is “per se unreasonable
under the Fourth Amendment,”’ with some limited
exceptions.” Rodriguez at 1136 (quoting Minnesota v.
Dickerson, 508 U.S. 366, 372 (1993)). It then
purported to find a blanket exception for a search for
firearms under the “community caretaking exception”
to the Fourth Amendment warrant requirement, which
originated in Cady v. Dombrowski, 413 U.S. 433
(1973).
The Ninth Circuit never tried to explain how Cady
applied here. The facts of the Cady case are entirely
dissimilar to the present case.
In Cady, the
warrantless search was for a missing firearm in an
automobile trunk before being discovered by a vandal.
Here, the warrantless search was for firearms in a
locked safe located in a home, which were fully
protected from unauthorized use.
The Ninth Circuit concluded that “the urgency of
a significant public safety interest was sufficient to
outweigh the significant privacy interest in
personal property kept in the home....” Rodriguez,
930 F.3d at 1140-41 (emphasis added). However,
privacy and property are different concepts. This
strange conflation of originalist property principles
with more modern notions of privacy, which began
with Olmstead v. United States, 277 U.S. 438 (1928)
and continued with Katz v. United States, 389 U.S.
347 (1967), reveals that the Ninth Circuit is confused
way of that highly favored practice.” Hill v. Colorado, 530 U.S.
703, 741 (2000) (Scalia, J., dissenting).

9
as to the original property-based protection provided
by the Fourth Amendment. As this Court clarified in
United States v. Jones, 565 U.S. 400, 405, 409 (2012),
“the Katz reasonable-expectation-of-privacy test has
been added to, not substituted for, the common-law
trespassory test” which had been tied to Fourth
Amendment jurisprudence, “at least until the latter
half of the 20th century.” Indeed, the Katz reasonable
expectation of privacy test was never at issue in this
case. Instead, the police seizure of the firearms from
a locked safe in the home — particularly that owned
by Petitioner — constituted a per se trespass, and
there was no rationale to bring this case under the
Cady case and thus exempt it from the warrant
requirement.
The Ninth Circuit explained there were only two
types of police action that it had recognized previously
as justifying a warrantless search or seizure under the
“community caretaking” exemption: (i) “home entries
to investigate safety or medical emergencies”6 and
(ii) “impoundments of hazardous vehicles.” Rodriguez,
930 F.3d at 1137. The circuit court then admitted that
it had never before applied this exception to seizures
in the category of home entries, only searches. Id. at
6

Not all circuits have permitted the “community caretaking”
exception to be applied to warrentless home trespasses. “Because
the Supreme Court’s reasoning in Cady focused on attributes
unique to vehicles, some circuits have confined the community
caretaking exception to automobiles.” Corrigan v. District of
Columbia, 841 F.3d 1022, 1034 (D.C. Cir. 2016) (declining to
decide whether the community caretaking exception applies in
homes). See also United States v. Johnson, 365 F. Supp. 3d 89, 99
(D.D.C. 2019).

10
1138. The Ninth Circuit’s analysis reveals it decided
to expand the doctrine not to protect the public, but for
only one reason — the private property seized by the
police were firearms.
However, the reasons given by the Court applied
only to Edward, not to the Petitioner, and none of
these reasons justify the city’s continued refusal to
return those firearms long after the incident occurred.
B. The Exercise of Second Amendment
Rights Does Not Constitute a Forfeiture
of Other Constitutional Rights.
The Ninth Circuit’s decision violates the principle
that the exercise of one constitutional right may not
permissibly be conditioned on the forfeiture of another
constitutional right. For example, Simmons v. United
States, 390 U.S. 377 (1968), in order for a criminal
defendant to claim a Fourth Amendment violation, he
was forced to testify that an object belonged to him,
and that testimony was later used against him at trial.
In essence, he was forced to forfeit his Fifth
Amendment right to keep silent in order to assert his
Fourth Amendment right. The Court called such a
situation a “condition of a kind to which this Court has
always been peculiarly sensitive.” Id. at 393. The
Court denounced such a Catch-22, stating that it is
“intolerable that one constitutional right should have
to be surrendered in order to assert another.” Id. at
394. Yet that is what has happened in this case.
Under the Ninth Circuit’s new firearms jurisprudence,
once Petitioner chose to keep a firearm in her house,
she forfeited her Fourth Amendment right not to have

11
her property seized within her home without a
warrant.
Similarly, in Perry v. Sindermann, 408 U.S. 593
(1972), this Court held that the government may not
deny a person a benefit “on a basis that infringes his
constitutionally protected interests.... For if the
government could deny a benefit to a person because
of his constitutionally protected [rights], his exercise of
those freedoms would in effect be penalized and
inhibited. This would allow the government to ‘produce
a result which [it] could not command directly.’ ... Such
interference with constitutional rights is
impermissible.” Id. at 597. Here, Petitioner was
deprived of her Fourth Amendment right to be “secure
in [her] house ... against unreasonable searches and
seizures” because she exercised her Second
Amendment right to “keep ... arms....” After Heller,
Respondent City of San Jose cannot prohibit Rodriguez
from exercising her Second Amendment right to keep
a firearm in her home for self-defense, and the Ninth
Circuit may not allow the City to deprive Petitioner of
the “benefit” of the warrant requirement so as to allow
her firearms to be seized.7

7

See amicus curiae brief of Gun Owners of America, et al., New
York Rifle & Pistol Association v. New York City at 23-26 (Oct. 9,
2019).

12
C. This Court Should Resolve a Circuit Split
that the Exercise of Second Amendment
Rights Diminishes Fourth Amendment
Rights.
The Ninth Circuit’s opinion joins several other
circuits which are split on whether police may consider
the mere presence of a firearm at a given location to
create a public danger that gives them powers over the
gun owner they otherwise would not have. In this
case, the Ninth Circuit determined that firearms in a
locked safe inside a home posed “a significant public
safety interest.” Rodriguez, 930 F.3d at 1140. Other
circuit court decisions arose in the context of open or
concealed carry. The Fourth and Tenth Circuits have
ruled that the mere presence of a firearm justified the
police treating the individual carrying a concealed
firearm as an armed and dangerous criminal. On the
other hand, the Third, Sixth, and Seventh Circuits
have held that mere possession of a firearm even
outside the home does not.8 The two circuits which
allow the presence of firearms to empower police to
conduct Fourth Amendment warrantless searches are
discussed first.
In the Fourth Circuit, a three-judge panel initially
held that “Because the carrying of a concealed firearm
is not itself illegal in West Virginia, and because the

8

Along these lines, Justice Thomas explained, “mere possession
of a [even] short-barreled shotgun does not, in the ordinary case,
pose a serious risk of injury to others.” Johnson v. United States,
135 S. Ct. 2551, 2565 (2015) (Thomas, J., concurring in the
judgment).

13
circumstances did not otherwise provide an objective
basis for inferring danger, we must conclude that the
officer who frisked Robinson lacked reasonable
suspicion that Robinson was not only armed but also
dangerous.” United States v. Robinson, 814 F.3d 201,
204 (4th Cir. 2016) (emphasis added). The court
explained “[t]oday in West Virginia ... there is no
reason to think that public gun possession is
unusual, or that a person carrying or concealing a
weapon during a traffic stop is anything but a
law-abiding citizen who poses no danger to the
authorities.” Id. at 208 (emphasis added). However,
the Fourth Circuit granted en banc review of this
decision and a divided court reached a different
conclusion: “It is also inconsequential that the
passenger may have had a permit to carry the
concealed firearm. The danger justifying a protective
frisk arises from the combination of a forced police
encounter and the presence of a weapon, not from
any illegality of the weapon’s possession.” United
States v. Robinson, 846 F.3d 694, 696 (4th Cir. 2017)
(en banc) (emphasis added). The Court held that any
person carrying a gun is “armed and thus dangerous”
— “even when the firearm is legally possessed.” Id. at
700-01.
Similarly, in United States v. Rodriguez, 739 F.3d
481 (10th Cir. 2013), the Tenth Circuit ruled that any
time the police believe a person is carrying a concealed
weapon, they are justified in detaining the person and
seizing his firearm “even where it might be more likely
than not that the individual is not involved in any
illegality.” (Emphasis added.) In that case, the
Tenth Circuit simply rolled the two Terry criteria

14
(armed and dangerous) into one, allowing the police to
assume that any person who is armed is automatically
dangerous. The Court even went so far as to assert
that “concealed weapons create an immediate and
severe danger to the public.” Id. at 490.
Three other circuits came to a very different
conclusion, not allowing the presence of firearms to
undermine Fourth Amendment protections. In United
States v. Ubiles, 224 F.3d 213 (3d Cir. 2000), the Third
Circuit held that “It is not necessarily a crime to
possess a firearm in the Virgin Islands ... nor does a
mere allegation that a suspect possesses a firearm, as
dangerous as firearms may be, justify an officer in
stopping a suspect.” Instead, the Third Circuit likened
possession of a gun to possession of a wallet: “This
situation is no different than if Lockhart had told the
officers that Ubiles possessed a wallet, a perfectly legal
act in the Virgin Islands, and the authorities had
stopped him for this reason. Though a search of that
wallet may have revealed counterfeit bills — the
possession of which is a crime under United States
law, see 18 U.S.C. §§ 471-72 — the officers would have
had no justification to stop Ubiles based merely on
information that he possessed a wallet....”
In Northrup v. City of Toledo Police Dep’t, 785
F.3d 1128 (6th Cir. 2015), the Sixth Circuit noted that
“Ohio law permits the open carry of firearms ... and
thus permitted Northrup to do exactly what he was
doing.” Therefore, “[c]learly established law required
Bright to point to evidence that Northrup may have
been ‘armed and dangerous.’ Yet all he ever saw was
that Northrup was armed — and legally so. To allow

15
stops in this setting ‘would effectively eliminate
Fourth Amendment protections for lawfully
armed persons.’” Id. at 1132 (emphasis added). The
Court concluded: “There is no ‘automatic firearm
exception’ to the Terry rule.... While open-carry laws
may put police officers (and some motorcyclists) in
awkward situations from time to time, the Ohio
legislature has decided its citizens may be entrusted
with firearms on public streets.... The Toledo Police
Department has no authority to disregard this decision
— not to mention the protections of the Fourth
Amendment — by detaining every ‘gunman’ who
lawfully possesses a firearm.” Id. at 1132-33.
Finally, in United States v. Leo, 792 F.3d 742 (7th
Cir. 2015), the Seventh Circuit held that a warrantless
search of a backpack during a Terry stop was not
justified based on only the belief that there might have
been a firearm in a backpack. The court stated “that
the Supreme Court has made clear that the Second
Amendment protects the individual right to keep and
bear arms....
Considering these important
developments in Second Amendment law together with
Wisconsin’s gun laws, we cannot accept the
government’s contention that the possibility of a gun
in Leo’s backpack posed a unique threat that justified
a full search of the bag on less than probable cause.”
Id. at 752.
Although these other circuit court cases involve
open or concealed carry, the principle that the exercise
of a Second Amendment right should not diminish a
person’s Fourth Amendment protections is the same,
and perhaps is stronger in the home. Thus, there

16
currently is a circuit split between courts which feel
that every armed citizen poses a threat to the police
and the public and those who recognize that the
exercising of one’s Second Amendment rights does not
require that he forfeit his Fourth Amendment rights.
The Court should grant the petition to resolve this
split and confirm that those who exercise their Second
Amendment rights are not second-class citizens.
II. THE NINTH CIRCUIT’S “LOW HANGING
FRUIT” EXCEPTION TO THE SECOND
AMENDMENT MUST BE REJECTED.
The infringement of Petitioner’s Second
Amendment rights by Respondent City was wholly
disregarded by all state and federal courts involved:
the California Superior Court, the California Court of
Appeal, the federal district court, and, finally, the
Ninth Circuit uniformly failed to protect Petitioner’s
rights. The seizure and retention of Petitioner’s
firearms has been problematic constitutionally from
the outset, and presents a type of infringement of
Petitioner’s Second Amendment rights never before
sanctioned by this Court.
Petitioner is not and has never been a disqualified
person.
Yet, Petitioner’s firearms were seized
pursuant to a California statute which “requires law
enforcement officers to confiscate any firearm ... that
is owned, possessed, or otherwise controlled by an
individual who has been detained” as Petitioner’s
husband Edward had been. See Rodriguez, 930 F.3d at
1128. Even if this language covered jointly owned
firearms, it did not provide a statutory basis for the

17
seizure of Petitioner’s solely owned firearm — which
was seized by police after her husband had been
removed for a 72-hour period of observation.
Certainly, after the Petitioner changed the
combination on her safe, and acquired full ownership
of the firearms, any possible rationale for refusing to
return the seized firearms ended. Second, the Ninth
Circuit explained that the California Superior Court,
which considered Respondent City’s petition for an
order of forfeiture, had “acknowledged that Lori could
legally “‘walk ... into any gun store and qualify to buy
a handgun ... and put [it] in that gun safe.’”
Rodriguez, 930 F.3d at 1129. Third, the federal
district court noted that, not only was Petitioner not
disqualified from acquiring new firearms under
California law, but also “Lori could sell the firearms at
issue to a licensed dealer .... Apparently, Lori could
then purchase those guns from the dealer.” Rodriguez,
2017 U.S. Dist. LEXIS 162977, *4 n.1.
How could all four courts conclude that refusing to
return Petitioner’s own firearms to her — a lawful gun
owner — anything other than an infringement of her
Second Amendment rights? Different courts offered
different rationales — none of which is adequate to the
task.
The California Court of Appeal denied Second
Amendment relief because “the Supreme Court
decisions in Heller and McDonald did not state that
the Second Amendment right to keep and bear arms
extends to keeping and bearing either any particular
firearms or firearms that have been confiscated
from a mentally ill person.” City of San Jose, 2015

18
Cal. App. Unpub. LEXIS 2315 at *20 (emphasis
added). Thus, the California court believes that a
person has no right to own his own firearms, but could
acquire other firearms. Then the court conflated
erroneously the right of Petitioner (who was entitled to
possess firearms) to reclaim her firearms with the
right of her husband (who was not entitled to possess
firearms).
Similarly, the federal district court refused to
order the return of the firearms based on its view that,
even though a person may have a right to possess a
handgun in the home under District of Columbia v.
Heller, that right is not specific to any firearm that a
person may own. It stated: “The Second Amendment
protects the right to keep and bear arms in general,
but it does not protect the right to possess specific
firearms....” Rodriguez, 2017 U.S. Dist. LEXIS
162977 at *4 (emphasis added). Under this curious
understanding of Heller, the Respondent City allowing
Petitioner to buy any gun, or even sell and buy back
her own firearms, but not obtain a return of her own
firearms directly from the City of San Jose police.
As authority for its proposition, the district court’s
relied on City of San Diego v. Boggess, 216 Cal. App.
4th 1494, 1503, 157 Cal. Rptr. 3d 644 (2013), a case
upholding a City’s refusal to return firearms to a
person who had been determined to be suicidal. In
Boggess, the California court concluded that neither
Heller nor McDonald “prohibits the government from
regulating the possession of guns by persons proven to
be dangerous due to mental illness or suggests that
those regulations are in direct conflict with the Second

19
Amendment.” Id. at 1506. Again, the courts conflate
the power to refuse to return firearms to those who are
mentally ill with its authority to refuse to return
firearms to those who the state has authorized to
purchase and possess firearms.
Moreover, the district court proposition is
precluded by Heller. The district court states that
California may seize and refuse to return all the
firearms that a person owns, so long as the person
retains the right to go out and purchase another
firearm. Such a statement of the Second Amendment
right violates the principle set out in Heller, that “[i]t
is no answer to say, as petitioners do, that it is
permissible to ban the possession of handguns so long
as the possession of other firearms (i.e., long guns) is
allowed.” Id. at 629.
Additionally, neither the district court nor the
Ninth Circuit court ever considered any financial
constraint on Petitioner purchasing new, replacement
firearms. Thus, the court seemed to assume that all
residents of San Jose are wealthy, or at least have
available the resources to spend several hundreds of
dollars to obtain a replacement firearm. The reality is
that, after an individual’s firearms collection is
confiscated by the state, it is not possible for many, if
not most, individuals to find the resources to go out
and buy one replacement firearm, to say nothing of the
dozen that were seized in this case. Respondent’s
imposition of such a financial burden on the possession
of a firearm is an “infringement” prohibited by the
Second Amendment.

20
So the question becomes, on what theory would the
courts below allow the Respondents to withhold the
illegally seized and constitutionally protected
firearms? The answer appears to be revealed in one
phrase of the Ninth Circuit’s opinion describing the
rationale of the California Superior Court:
it held that the City was nevertheless
authorized to take the ‘low hanging fruit’ of
the guns the Rodriguezes already owned,
irrespective of Lori’s ability to buy more,
because of the danger that Edward presented.
[Rodriguez, 930 F.3d at 1129 (emphasis
added).]
Since the danger that Edward may once have
presented was long over, and he had no access to the
firearms in Lori’s safe, the Ninth Circuit could be
understood to have sanctioned a new exception to the
“shall not be infringed” language of the Second
Amendment — the “low hanging fruit” exception. In
truth, none of the rationales offered by Respondent
City or the courts below are persuasive, and certainly
no “low hanging fruit” rule should be tolerated.9
9

Petitioners had asked, alternatively, that the Court hold
consideration of their petition pending the outcome in New York
State Rifle & Pistol Association — another case in which these
amici had filed amicus briefs at both the petition and merits
stages. However, that case was decided on April 27, 2020, without
providing the lower courts with further guidance as to how to
evaluate Second Amendment claims. As of this date, there are
nearly a dozen petitions for certiorari pending that raise Second
Amendment issues. Should the Court grant review in one or more
of those cases before ruling on this petition, these amici urge the

21
Lastly, if allowed to stand, the Ninth Circuit ruling
would make it seemingly impossible for a married
woman to defend against state violations of her Second
Amendment right to “keep and bear arms,” without
being subjected to forcible confiscation and retention of
her firearms by the state should her husband become
a “disqualified person.” Indeed, in this case, the Ninth
Circuit has sub silentio adopted this anti-woman policy
despite Petitioner’s full compliance with California
Penal Code § 25135, which, as the Petition explains,
requires “that firearms be secured in an approved gun
safe when a lawful gun owner lives with another
person who is prohibited from possessing, receiving or
purchasing a firearm.” Petition at 5. Other courts
have recognized that law-abiding girlfriends,
boyfriends, and other housemates are able to safely
possess firearms in their homes, despite the presence
of a “disqualified person” also living in the household.
See, e.g., United States v. Huet, 2010 U.S. Dist. LEXIS
12359 (W.D. Pa 2010). Married women in California
should be treated no less favorably than the
“paramour” whose interests were recognized and
protected by the district court in Pennsylvania. See
also, E. Volokh, “Second Amendment Protects Gun
Possession by Housemates of Felons,” The Volokh
Conspiracy (Nov. 24, 2010).

Court to hold this petition pending resolution of any such other
case.

22
III. THE COURT SHOULD ADDRESS THE
SECOND AMENDMENT ISSUE IN THIS
CASE DESPITE THE NINTH CIRCUIT’S
ISSUE PRECLUSION AVOIDANCE
TECHNIQUE.
Respondents never raised an issue preclusion
argument in their motion for summary judgment in
district court or in their opening brief on appeal. And
they never took the initiative to assert that defense on
appeal until it was raised by the court for them
seeking supplemental briefing. Thus, it had been
forfeited, and in a case not involving firearms, it would
never be considered by the Ninth Circuit. That court
not only raised the issue for respondents, it then
disregarded Respondents’ forfeiture of the argument,
allowing the court to avoid directly addressing the
Second Amendment issue. In asserting a defense on
behalf of a party, the Ninth Circuit did something
similar to what this Court recently unanimously
chastised the Ninth Circuit for doing in United States
v. Sineneng-Smith, 590 U.S. __, 2020 U.S. LEXIS 2639
(May 7, 2020), where Justice Ginsburg explained:
In our adversarial system of adjudication, we
follow the principle of party presentation. As
this Court stated in Greenlaw v. United States,
554 U. S. 237 (2008), “in both civil and
criminal cases, in the first instance and on
appeal. . . , we rely on the parties to frame the
issues for decision and assign to courts the role
of neutral arbiter of matters the parties
present.” Id., at 243. [Sineneng-Smith at *6.]

23
Although that case involved appointment of amici to
argue issues raised sua sponte by the Ninth Circuit,
the point is the same here. In ordering supplemental
briefing on an issue not raised (and no doubt forfeited)
by the parties, the Ninth Circuit violated the “principle
of party presentation.”10
CONCLUSION
For the reasons stated above, the Petition for a
Writ of Certiorari should be granted.
Respectfully submitted,

*Counsel of Record

10

JEREMIAH L. MORGAN*
WILLIAM J. OLSON
ROBERT J. OLSON
HERBERT W. TITUS
WILLIAM J. OLSON, P.C.
370 Maple Ave. W., Ste. 4
Vienna, VA 22180
(703) 356-5070
wjo@mindspring.com
jmorgan@lawandfreedom.com
Attorneys for Amici Curiae
May 20, 2020

As pointed out by Petitioner, the Ninth Circuit’s issue
preclusion doctrine would make it impossible for individuals later
to challenge in federal court actions taken by states to deprive
them of the right to keep and bear arms under so-called red flag
orders, thereby precipitating potentially unnecessary federal
litigation. See Petition at 17 n.5.

